   May 7, 2004




Information Technology
Reporting of DoD Capital
Investments for Information
Technology
(D-2004-081)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

IT                    Information Technology
OMB                   Office of Management and Budget
Report No. D-2004-081                                                        May 7, 2004
   (Project No. D-2003AL-0147)




          Office of the Inspector General of the Department of Defense
                      Reporting of DoD Capital Investments
                          for Information Technology

                                 Executive Summary

Who Should Read This Report and Why? DoD managers preparing and certifying
capital investment justifications for information technology should read this report to
improve the quality of data being submitted by the Assistant Secretary of Defense
(Networks and Information Integration) to the Office of Management and Budget and
Congress.

Background. Information technology is a President’s Management Agenda priority for
expanding electronic government. Also, Congress has expressed concerns on how DoD
manages information technology because of reports that it considered inaccurate,
misleading, or incomplete. In FY 2004, DoD budgeted $27.9 billion for information
technology.

Results. DoD Capital Investment Reports submitted to the Office of Management and
Budget and Congress for information technology assets did not consistently demonstrate
that information supporting the budget justifications were directly connected to the DoD
strategic plan and would provide a positive return on investment; sound acquisition
planning; comprehensive risk mitigation and management planning; realistic cost and
schedule goals; and measurable performance benefits. Although the Assistant Secretary
of Defense (Networks and Information Integration) made changes to the automated
database system for Component reporting of information technology investments, DoD
guidance needs to be modified to make Component Chief Information Officers and Chief
Financial Officers more accountable for submitted data. When certified Capital
Investment Reports for information technology are forwarded to the Assistant Secretary
of Defense (Networks and Information Integration), the submissions should be complete
and accurate and in compliance with the Clinger-Cohen Act and Office of Management
and Budget Circular A-11. Also, provisions should be made in the DoD guidance for
nonconforming investments. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. The Deputy Comptroller
(Program/Budget) concurred with the finding and recommendations, and the Deputy
Assistant Secretary of Defense (Resources) concurred with the first recommendation but
did not comment on the second recommendation. Therefore, we request that the Deputy
Assistant Secretary of Defense (Resources) comment on this recommendation by June 7,
2004. See the Finding section of the report for a discussion of the management
comments and the Management Comments Section of the report for the complete text of
the comments.
Table of Contents

Executive Summary                                                  i

Background                                                        1

Objective                                                         1

Finding
     Completeness of DoD Information Technology Reports            2

Appendixes
     A. Scope and Methodology                                     14
         Management Control Program Review                        15
         Prior Coverage                                           15
     B. Number of FY 2004 Information Technology Reports by DoD
          Component                                               16
     C. Report Distribution                                       17


Management Comments
     Deputy Comptroller (Program/Budget)                          19
     Deputy Assistant Secretary of Defense (Resources)            20
Background
    DoD Components use information technology (IT) in a wide variety of mission
    functions including finance, personnel management, computing and
    communication infrastructure, logistics, intelligence, and command and control.
    IT consists of any equipment or interconnected system or subsystem of equipment
    that is used in the automatic acquisition, storage, manipulation, management,
    movement, control, display, switching, interchange, transmission, or reception of
    data or information. The President’s Management Agenda for expanding
    electronic government has identified effective planning for IT investments as a
    priority. In addition, Congress has challenged the quality of DoD IT management
    because of reports it considered to be inaccurate, misleading, or incomplete. The
    Assistant Secretary of Defense (Networks and Information Integration), as the
    Chief Information Officer, is the principal staff assistant for DoD IT. For
    FY 2004, DoD budgeted $27.9 billion for IT.

    General Accounting Office. The General Accounting Office assessed the
    funding information in the DoD Information Technology Budget Summary to
    determine the reliability of the DoD FY 2004 budget submission for IT. Audit
    Report GAO-04-115, “Improvements Needed in the Reliability of Defense
    Budget Submissions,” December 2003, found that the FY 2004 IT budget
    submission contains material inconsistencies, inaccuracies, or omissions that
    limited its reliability. The report made eight recommendations to improve the
    reliability of future budget submissions and raise the level of management
    attention on improving reliability and strengthening the management processes
    and supporting systems.

Objective
    The overall audit objective was to verify and validate whether the Services and
    DoD Components are adequately reporting information technology investments to
    the Congress and OMB. Specifically, the audit determined whether Exhibit 300
    “Capital Asset Plan and Business Case” submissions to OMB and “IT Capital
    Asset Reports” to Congress demonstrated that DoD is managing its information
    technology investments in accordance with OMB and DoD guidance. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology and the review of
    the management control program.




                                        1
           Completeness of DoD Information
           Technology Reports
           DoD Components did not adequately report information technology
           investments to Congress and OMB in support of the President’s Budget
           for FY 2004. This condition occurred because Component Chief
           Information Officers and Chief Financial Officers did not always include
           required information in submitted reports. Specifically, 170 of
           198 Capital Investment Reports submitted to OMB (86 percent) and
           182 of 197 Selected Capital Investment Reports submitted to Congress
           (92 percent) in standard formats did not completely respond to one or
           more required data elements addressing project management; business
           case justifications; realistic cost and schedule goals; and measurable
           performance benefits. Further, the DoD Chief Information Officer did not
           have effective procedures to compel Component Chief Information
           Officers and Chief Financial Officers to submit complete and accurate
           reports. As a result, the quality of DoD information reported to OMB and
           Congress had limited value and did not demonstrate, in accordance with
           OMB and DoD guidance, that DoD was effectively managing its
           $27.9 billion IT investment for FY 2004.


Guidance
    Clinger Cohen Act. Public Law 104-106, “National Defense Authorization Act
    for Fiscal Year 1996, Division E, Information Technology Management Reform,
    February 10, 1996, commonly called the “Clinger-Cohen Act,” requires effective
    and efficient capital planning processes for selecting, managing, and evaluating
    the results of all major investments in IT. The Act requires that executive
    agencies:

           •   Establish goals for improving the efficiency and effectiveness of
               agency operations through the effective use of IT,

           •   Prepare an annual report, to be included in the executive agency’s
               budget submission to Congress, on the progress in achieving the goals,

           •   Prescribe performance measurements for IT, and measure how well IT
               supports agency programs,

           •   Quantitatively measure agency process performance for cost, speed,
               productivity, and quality against comparable processes and
               organizations in the private and public sectors where they exist,




                                        2
           •   Analyze the missions of the executive agency and, based on the
               analysis, revise the executive agency’s mission-related processes and
               administrative processes as appropriate before making significant
               investments in IT, and

           •   Ensure that the IT security policies, procedures, and practices of the
               executive agency are adequate.

    Public Law 107-314. Public Law 107-314, December 2, 2002, section 351,
    “Annual Submission of Information Regarding Information Technology Capital
    Assets,” requires the Secretary of Defense to annually submit reports with
    information justifying investments for IT capital assets that have an estimated
    annual cost of more than $10 million. For FY 2004, the Assistant Secretary of
    Defense (Networks and Information Integration) forwarded 197 Selected Capital
    Investment Reports to Congress. Appendix B lists, by DoD Component, the
    number of Selected Capital Investment Reports submitted to Congress.

    Office of Management and Budget Circular A-11. Circular A-11,
    “Preparation, Submission, and Execution of the Budget,” Part 7, Section 300,
    “Planning, Budgeting, Acquisition, and Management of Capital Assets,” June
    2002, implements the Clinger-Cohen Act and establishes policy and procedural
    guidance for planning, budgeting, acquiring, and managing Federal capital assets.
    Agencies are required to demonstrate to OMB in semi-annual reports that major
    IT investments provide a direct connection to agencies’ strategic plans, a positive
    return on investment, sound acquisition planning, comprehensive risk mitigation
    and management planning, realistic cost and schedule goals, and measurable
    performance benefits. For the FY 2004 President’s Budget, the Assistant
    Secretary of Defense (Networks and Information Integration) forwarded to OMB
    198 Capital Investment Reports. Appendix B lists, by DoD Component, the
    number of Capital Investment Reports submitted to OMB.

    DoD Financial Management Regulation. The DoD Financial Management
    Regulation, 7000.14-R, Volume 2B, Chapter 18, “Information Technology
    Resources and National Security Systems,” June 2002, requires all Defense
    Components that have any resource obligations supporting information
    technology or national security systems to prepare Capital Investment Reports,
    which are mandated by OMB Circular A-11. This chapter is a collaborative effort
    between the Under Secretary of Defense Comptroller/Chief Financial Officer and
    the Assistant Secretary of Defense (Networks and Information Integration) and
    requires Component Chief Information Officers and Chief Financial Officers to
    jointly certify that reports are complete, accurate, and consistent with the Clinger-
    Cohen Act, Paperwork Reduction Act, and other applicable acts and
    requirements. However, the Regulation does not define other applicable acts and
    requirements, such as OMB Circular A-11.


Capital Investment Reports to OMB
    The IT Capital Investment Reports submitted in support of the President’s Budget
    for FY 2004 did not demonstrate that DoD was effectively and efficiently

                                          3
            managing IT resources in accordance with OMB Circular A-11, June 26, 2002.
            Our analysis of 198 reports found that 170 reports (86 percent) contained
            incomplete information in one or more report sections when compared to criteria
            in Circular A-11. Information addressing risk management, performance goals,
            monitoring program progress (Project and Funding Plan), and analyses of
            alternatives were not provided or were incomplete.

            Risk Management. Circular A-11 requires Components to describe the results of
            risk assessments in 19 prescribed risk areas.1 However, as shown in Table 1,
            Components did not address all the risk areas in 124 of the 198 submissions
            (63 percent) and inconsistencies existed between Components. Those differences,
            we were told, may have occurred because the Components were confused by the
            instructions in the June 2002 Circular A-11. Recognizing the inconsistencies,
            OMB modified its instructions in July 2003.

                       Table 1. Prescribed Risk Areas Not Completely Addressed

                                               Number of Incomplete
                                                  Submissions                             Percent

            Army                                        37 of 37                            100
            Navy                                        23 of 48                             48
            Air Force                                   23 of 33                             70
            Defense agencies                            41 of 80                             51


            In addition to addressing specific risk areas, Components were also required to
            provide the date of their risk management plans. However, the dates for 13 of the
            198 reported IT investments (7 percent) were omitted because risk management
            plans had not been developed. Further, two Air Force programs–Regionalization
            of Civilian Personnel Support and Global Command and Control System Air
            Force–did not provide any risk management plan information. Also, four Army
            (11 percent), eight Navy (17 percent), and five Air Force (15 percent) reports did
            not complete the required OMB matrix that included the risk description, date,
            probability of occurrence, strategy for mitigation, and current status of each risk
            area.

            Performance Goals and Measures Reported. Circular A-11 requires agencies
            to complete a matrix for FYs 2002 through 2007 that addresses strategic goals
            supported by investment’s baselines, planned performance improvement goals,
            actual performance improvement results, and planned and actual performance
            metrics. However, as shown in Table 2, DoD Components did not complete the
            required data elements for 30 of the 198 reports (15 percent). Some reports, such

1
    The 19 prescribed risk areas address: schedules, initial costs, life-cycle costs, technical obsolescence,
    feasibility, system reliability, dependencies and interoperability with other projects, asset protection,
    future procurements creating a monopoly, agency capability to manage the project, overall risk of project
    failure, organizational and change management, business, data/information, technology, strategy, security,
    privacy, and project resources.


                                                       4
as the Navy’s Tactical Aircraft Mission Planning System, had missing reporting
elements, while others, such as the Defense Information Systems Agency Defense
Information Systems Network-Long Haul investment, addressed only one of the
required 6 fiscal years. Also, 52 of the 198 reports (26 percent) did not provide
information in the prescribed matrix format, thereby making it difficult to
determine whether all required information was reported.

  Table 2. Performance Goals and Measures Table Elements Not Addressed
                               Number of Reports                  Percent
Army                                 2 of 37                         5
Navy                                20 of 48                        42
Air Force                            1 of 33                         3
Defense agencies                     7 of 80                         9


Further, the matrix template in the June 2002 Circular A-11 requires that goals
and measures reflect performance benefits that can be linked to Components’
missions and strategic goals and can be clearly measurable. Performance results
that cannot be quantitatively or qualitatively measured should not be reported.
However, in 25 of the 198 reports (13 percent), Components provided program
schedule performance as a measurement rather than as agency mission or strategic
goal performance benefits. Sixteen reports (8 percent) provided goals that were
too vague for measuring program benefits, and 20 reports (10 percent) did not
include performance metrics for measuring program results.

Analysis of Alternatives Reported. Components did not complete the Analysis
of Alternatives section for 99 of 198 Capital Investment Reports (50 Percent).
Components either did not respond to requests for information or believed that the
Analysis of Alternatives did not apply to specific investments. Table 3
demonstrates the numbers of incomplete submissions and the range of differences
among reporting Components.

                 Table 3. Incomplete Analysis of Alternatives
                              Number of Reports               Percent

Army                                18 of 37                       49
Navy                                31 of 48                       65
Air Force                           23 of 33                       70
Defense agencies                    27 of 80                       34

OMB Circular A-11 requires agencies to identify three alternatives and provide a
financial summary of the selected alternative. However, 26 of 198 reports
(13 percent) identified less than three alternatives, and 30 of 198 reports
(15 percent) did not include the required financial summary. Also, seven reports
did not include the required summary of life-cycle costs. Further, rather than
                                    5
           provide information and complete the charts in the required standard format, the
           Air Force High Performance Computing Modernization Program described its
           Analysis of Alternatives in a three-page narrative.

           The following describes some of the reasons why Components did not comply
           with Circular A-11 Guidance for Analyses of Alternatives:

                    •   Components believed that Analyses of Alternatives did not apply to
                        10 investments that were either in the steady state phase of their life
                        cycle or were considered legacy systems. Further, the Air Force stated
                        in its draft “Information Technology Capital Investment Report
                        Preparation Guide,” November 2003, that OMB analysts believed that
                        an Analysis of Alternatives may not be appropriate for systems in
                        steady state. However, OMB Circular A-11 makes no exception for
                        investments in this life-cycle stage when reporting the Analysis of
                        Alternatives.

                    •   The Defense Information Systems Agency believed that an Analysis of
                        Alternatives did not apply to seven investments because DoD did not
                        classify the investments as major automated information systems.2
                        However, Circular A-11 makes no exception for investments that fall
                        below the DoD definition for major automated information systems.

                    •   The Navy did not believe that an Analysis of Alternatives applied to
                        its investments in the Defense Message System and Global Command
                        and Control System because program management was not its
                        responsibility. However, Circular A-11 does not exclude investments
                        that are modules of larger joint programs.

                    •   The Navy also believed that a traditional Analysis of Alternatives did
                        not apply to the Electronic Commerce/Electronic Data Interchange and
                        the Common Access Card pilot project investments because it believed
                        the investments were not capital assets or large-scale system
                        developments. However, Circular A-11 makes no exception for pilot
                        project programs.

                    •   The Army did not conduct an Analysis of Alternatives for its
                        investment in Strategic Command and Control Facilities because DoD
                        requires these facilities throughout the world. However, Circular A-11
                        makes no exception for worldwide investments.

                    •   The Defense Information Systems Agency did not believe that an
                        Analysis of Alternatives applied to its Common Operating
                        Environment Investment because it is a collection of infrastructure
                        components and not an automated information system. Circular A-11
                        requires an Analysis of Alternatives for all assets.


2
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003, requires an
    Analysis of Alternatives only for Major Defense Acquisition Programs and Major Automated Information
    Systems.


                                                     6
                     •   The Defense Information Systems Agency did not believe that an
                         Analysis of Alternatives applied to the Command Control
                         Communications and Intelligence Test Certification because the
                         unique function provided by the system was governmental. However,
                         Circular A-11 makes no exception for investments that provide
                         functions that are unique to the Government.

            In addition to the exceptions listed above, the Army Installation Information
            Infrastructure Modernization Program and the Air Force Electronic Commerce
            Program stated that the analyses were accomplished at various sites and therefore
            did not provide the Analyses of Alternatives in their submissions. Further, the
            Army described three types of analyses performed for the Transportation
            Coordinators’ Automated Information for Movement System II, but did not
            provide alternate solutions with the analyses. Conversely, the Defense
            Information Systems Agency described alternative solutions for its Global
            Information Grid Bandwidth Expansion investment, but did not provide any
            analysis.

            Project and Funding Plan. Circular A-11 requires agencies to measure cost and
            schedule progress in the Project and Funding Plan section of the Capital
            Investment Report. Further, Circular A-11 requires agencies to use an earned
            value management system for measuring the progress of development efforts.3
            However, Components did not complete the Project and Funding Plan section for
            76 of the 198 FY 2004 reports (38 percent). Table 4 shows the number of
            incomplete reports and the range of differences among reporting components.

                             Table 4. Incomplete Project and Funding Section
                                           Number of Reports               Percent
            Army                                        21 of 37                              57

            Navy                                        26 of 48                              54

            Air Force                                       9 of 33                           27

            Defense agencies                            20 of 80                              25


            Thirty-five (35) of the 198 reports (18 percent) did not provide information or
            stated “not applicable” with no further explanations. Missing cost and schedule
            baselines for comparing actual and planned program results was another reason
            for incomplete earned value management system information.

                   Earned Value Management. Circular A-11 requires that earned value
            management applications be used to determine whether investments in
            development meet approved cost and schedule goals. Circular A-11 sets no
            minimum dollar threshold for using earned value management and does not limit

3
    Circular A-11 excludes investments that are new starts in FY 2004 and investments in the steady state life-
    cycle phase from its requirement to demonstrate an earned value management system.

                                                        7
the use of earned value management to contractor costs. However, 26 reports for
investments in the development phase did not include earned value management
information. Program managers submitting eight reports believed that because
their investments were below the DoD dollar thresholds for major automated
information system acquisitions, they were not required to report cost and
schedule progress. Program managers submitting an additional 10 reports
believed that earned value management did not apply to their investments because
their development contracts were either firm-fixed-price or time-and-materials
contracts. An additional manager did not implement earned value management
because it was not a contractual requirement.

        Cost and Schedule Baselines. Circular A-11 requires Components to
include a series of tables in their reports that describe the original and revised cost
and schedule baselines and compare the approved baselines to actual performance
results for measuring progress. Circular A-11 makes no exceptions. However, in
10 of 198 submissions (5 percent), Components either had not reported
established baselines or had not compared baselines to program results. Five
Army, one Navy, three Air Force, and one Defense Logistics Agency submission
did not provide comparisons for measuring progress.

        Applicability of the Project and Funding Plan. Components believed
that the Project and Funding Plan section of the FY 2004 Capital Investment
Report submissions did not apply to 22 of the 198 investment reports (11
percent). Components submitting 16 reports believed that the section did not
apply to them because their programs were in the maintenance or steady state
phase of life cycles. However, for these programs, Circular A-11 requires
Components to identify the application they will use to perform an operational
analysis for demonstrating efficiency and effectiveness.

In addition, the Navy did not believe that the Project and Funding Plan report
section for its DoD Teleport Program and Global Command and Control System
applied, because the systems were part of larger, joint DoD enterprise programs.
However, the Army and Air Force addressed the Project and Funding Plans on
their Global Command and Control System reports. Also, the Navy did not
consider its Electronic Commerce/Electronic Data Interchange and Common
Access Card programs to be capital assets and, as a result, did not provide cost
and schedule comparison information for measuring program progress.

Other Areas of Incomplete Reporting. Our review also identified incomplete
information reporting in other areas. Those ranged from 2 to 17 percent of the
198 submissions for Enterprise Architecture, Security and Privacy, Acquisition
Strategy, Program Justification, Application and Technology, Data and Program
Management, and the Government Paperwork and Elimination Act areas.




                                       8
Selected Capital Investment Reports to Congress
     The quality of information that DoD submitted to Congress for FY 2004 also did
     not demonstrate that DoD Components were adequately managing IT. One
     hundred and eighty-two (182) of the 197 reports, derived from the same database
     as the Capital Investment Reports submitted to OMB, contained insufficient
     information in the required areas of Analysis of Alternatives, Enterprise
     Architecture, Performance Goals and Measures, Risk Inventory and Assessment,
     Program/Project Management, Contract/Government Support Information,
     Project Funding, and Clinger Cohen Compliance.

     Analysis of Alternatives. For this area, 47 of the 197 reports (24 percent) did not
     address Analyses of Alternatives. Program managers believed that the analyses
     did not apply to their programs because investments were:

            •   below DoD dollar thresholds for major acquisitions,

            •   in the steady state life cycle phase,

            •   a part of a joint DoD enterprise system, or

            •   made when alternatives did not exist.

     In addition to the 47 reports with missing Analysis of Alternatives information,
     38 of the 197 reports (19 percent) contained analyses that were incomplete.
     Reports were:

            •   missing the required financial summary;

            •   in progress and partially completed;

            •   not in the prescribed report format; and
            •   performed, but results of analyses withheld from reports.

     Enterprise Architecture. For this area that describes business function
     relationships with technologies and information that supports them, 3 of
     197 reports (2 percent) were blank and 59 of 197 reports (30 percent) contained
     incomplete information. Ten reports submitted by Components stated that
     investments were weapons and tactical systems and not business systems and
     therefore they did not have to provide information for the area. Also, 17 Army
     and 4 Defense Finance and Accounting Service reports did not fully explain how
     their investments related to their enterprise architectures. Further, nine Army
     submissions provided insufficient report information to determine business
     function relationships with technologies and supporting information.

     Performance Goals and Measures Reported to Congress. For this area that
     links annual performance plans to measurable goals, 5 of 197 reports (3 percent)
     were blank and 58 of 197 reports (29 percent) were partially complete. Strategic
     goals, existing baselines, planned performance improvement goals, actual

                                           9
performance improvement results, planned performance metrics, and actual
performance metric results were missing from the submissions. Further, 18 Air
Force, 3 Defense Finance and Accounting Service, and 2 U.S. Transportation
Command investments measured performance in terms of time rather than goals.
Twenty (20) Air Force, and 2 Defense Finance and Accounting Service
investments did not report planned performance metrics. Six investments were
not submitted in the required format and six investments reported insufficient
performance goal information for measuring progress.

Risk Inventory and Assessment Reported to Congress. For this area
discussing eight types of risk, 4 of 197 reports (2 percent) that required dates of
identification, descriptions, probabilities of occurrence, strategies for mitigation,
and current status were completely blank, and 95 of 197 reports (48 percent)
contained incomplete information. Also, areas of risk either were not reported or
not rated, and Components had no risk plans. Twenty-two (22) Army, 15 Air
Force, 2 U. S. Transportation Command, 2 Defense Logistics Agency, 2 Office of
Secretary of Defense, and 1 Defense Finance and Accounting Service submission
did not provide information addressing the eight required risk areas. Also, some
Component investment reports replaced the eight standard types of risk with their
own areas of risk and added models to evaluate them.

Contract-Government Support Reported to Congress. For this area requiring
Components to submit contract numbers, types of contracts, prime contractors’
names and addresses, and brief descriptions of the contracts, 16 of 197 reports
(8 percent) were completely blank and 38 of 197 reports (19 percent) contained
insufficient information. Types of contracts were omitted, required report tables
were not complete, and contract numbers were missing. Further, reasons were not
given for six Army and seven Air Force reports omitting contract types.

Program-Project Management. Twelve (12) of 197 reports (6 percent) did not
provide complete information addressing program managers, integrated project
teams, and related skill sets. Nine Air Force reports and one Army report did not
identify related skill set information. The Defense Information Systems Agency
submitted a report for Command, Control, Communications, and Intelligence Test
Certification that did not provide program management information and no
project manager or integrated project team was identified for the Defense
Logistics Agency’s Defense Fuels Automated Management System.

Project Funding. For this area that compares baselines with actual results, 22 of
197 reports (11 percent) were completely blank and 61 of 197 reports (31 percent)
contained incomplete information. The Defense Logistics Agency believed that
its Joint Total Asset Visibility Program was not required to provide a comparison
of baselines to results because it was a Special Interest Program and therefore did
not need traditional acquisition documents. Other reasons for incomplete
responses included programs in the steady state life-cycle stage, non-major
acquisition programs, and baselines that were not established or with variances of
less than 10 percent. In addition, one Navy and three Army reports did not cite
reasons justifying why Project Funding was not applicable to their investments.

Clinger-Cohen Act Compliance. For this area that reports the dates and status
of the certifications of compliance with the Clinger-Cohen Act, 80 of 197 reports


                                     10
            (41 percent) were missing and 86 of 197 (44 percent) contained incomplete
            information. Reasons for the missing and incomplete information varied, such as
            that certifications were being processed or certifications did not apply to the
            project. The Defense Logistics Agency believed that compliance with the
            Clinger-Cohen Act did not apply to three mature systems and one new start.
            Also, the U.S. Transportation Command believed that the requirement for Clinger
            Cohen certification did not apply to one new start. Further, although the U.S.
            Transportation Command stated that seven of its nine reported investments were
            compliant, it did not provide certification dates. Also, the TRICARE
            Management Agency substituted internal management control processes for
            certifications of its smaller investments rather than applying the Clinger-Cohen
            criteria.


Certification of Reports
            The DoD Financial Management Regulation’s certification requirement for IT
            Capital Investment Reporting is not linked to Circular A-11 policies and
            procedures. As a result, Component Chief Information Officers and Chief
            Financial Officers certified reports that did not comply with OMB Circular A-11.
            Further, the Financial Management Regulation does not require Component Chief
            Information Officers and Chief Financial Officers to explain why reports are
            incomplete.

            The Army certified that its Capital Investment Reports to OMB were prepared,
            reviewed, and submitted in accordance with the DoD Financial Management
            Regulation. However, our review of these submissions found that required
            information was missing or incomplete for all 37 Army reports when compared to
            Circular A-11 reporting requirements. Also, the Defense Information Systems
            Agency certified that its reports were prepared in accordance with reporting
            requirements. However, our review of these submissions found that required
            information was missing or incomplete for 18 of 19 Capital Investment Report
            Submissions to OMB when compared to Circular A-11 reporting requirements.
            Further, the Navy did not submit a certification for its Capital Investment Report
            to the Office of Assistant Secretary of Defense (Networks and Information
            Integration) for FY 2004.4


Conclusion
            The quality of reported IT information submitted to Congress and OMB for
            FY 2004 did not consistently demonstrate that Components were effectively
            managing IT capital assets. Information was incomplete and was not directly
            connected to the Component or the DoD strategic plan, a positive return on
            investment, sound acquisition planning, comprehensive risk mitigation and
            management planning, realistic cost and schedule goals, and measurable

4
    According to officials in the Office of Assistant Secretary of Defense (Networks and Information
    Integration).

                                                      11
            performance benefits. Although reasonable explanations existed for some
            missing and incomplete data, this rationale could not be applied systemically for
            the majority of missing or incomplete information responses.

            The Assistant Secretary of Defense (Networks and Information Integration)
            recognized that IT reporting needs to be improved. DoD invested more than
            $1 million in a database system to compile and report IT business case
            information and incorporated database automated management control features
            for reviewing and tracking IT budget submissions for FY 2005.5 However, DoD
            also needs to ensure that Component Chief Information Officers and Chief
            Financial Officers submit complete and accurate IT information to the Assistant
            Secretary of Defense (Networks and Information Integration) for forwarding to
            Congress and OMB in accordance with the Clinger-Cohen Act and OMB Circular
            A-11. Also, for nonconforming investments, Component Chief Information
            Officers and Chief Financial Officers should justify why OMB Circular A-11
            information reporting requirements could not be completed.


Recommendations, Management Comments and Audit
  Response
            We recommend that the Under Secretary of Defense (Comptroller)/Chief
            Financial Officer, in coordination with the Assistant Secretary of Defense
            (Networks and Information Integration), improve the quality of information
            technology reporting to Congress and the Office of Management and Budget
            by:

                    1. Modifying the DoD Financial Management Regulation 7000.14-R,
            Volume 2B, Chapter 18, “Information Technology Resources and National
            Security Systems,” June 2002, Paragraph 180102 to link information report
            certifications submitted by Component Chief Information Officers and Chief
            Financial Officers to policy and procedural guidance required by Office of
            Management and Budget Circular A-11.

                   2. Requiring justifications for investments that do not conform to
            Office of Management and Budget policy and procedural guidance.

            Deputy Comptroller (Program/Budget) Comments. The Deputy Comptroller
            (Program/Budget) concurred with the finding and recommendations and stated
            that the recommendations will be addressed in the update of the DoD Financial
            Management Regulation in May or June 2004.

            Deputy Assistant Secretary of Defense (Resources) Comments. The Deputy
            Assistant Secretary of Defense (Resources) concurred with Recommendation 1.
            The Deputy Assistant Secretary of Defense (Resources) stated that the next
            change to the DoD Financial Management Regulation 7000.14-R, Volume 2b,

5
    According to officials in the Office of Assistant Secretary of Defense (Networks and Information
    Integration).


                                                      12
Chapter 18 would link information report certifications to the procedural guidance
required by OMB Circular A-11.

Audit Response. We consider the planned changes to the Financial Management
Regulation by the Deputy Comptroller (Program/Budget) and the Deputy
Assistant Secretary of Defense (Resources) to be responsive. However, the
Deputy Assistant Secretary of Defense (Resources) did not address
Recommendation 2. Therefore, we request that the Deputy Assistant Secretary of
Defense (Resources) comment on this recommendation by June 7, 2004.




                                    13
Appendix A. Scope and Methodology
   We examined all 198 Capital Investment Reports that DoD submitted to the
   Office of Management and Budget and all 197 Selected Capital Investment
   Reports that DoD submitted to Congress for the FY 2004 President’s Budget. We
   evaluated the reporting process and the completeness of information for each
   report based on report preparation guidance from OMB Circular A-11,
   “Preparation, Submission, and Execution of the Budget,” June 2002, and the DoD
   Financial Management Regulation 7000.14-R, Volume 2B, Chapter 18,
   “Information Technology Resources and National Security Systems,” June 2002.
   We also reviewed relevant documents addressing report submissions from August
   1996 through September 2003.

   We met with officials who were responsible for preparing and submitting DoD IT
   budget data and business case reports within the Army, Navy, Air Force, Defense
   Information Systems Agency, Defense Logistics Agency, and Office of the
   Assistant Secretary of Defense (Health Affairs). We also met with the analyst
   responsible for IT budget reports within the Office of the Assistant Secretary of
   Defense (Networks and Information Integration) to gain an overall understanding
   of the IT budget process. We also met with General Accounting Office personnel
   who were responsible for Audit Report GAO-04-15, “Improvements Needed in
   the Reliability of Defense Budget Reports,” December 2003.

   This audit was performed from July 2003 through February 2004 in accordance
   with generally accepted government auditing standards.

   Changes in Audit Scope. We expanded the audit scope as a result of the “Bob
   Stump National Defense Authorization Act for Fiscal Year 2003” that mandated
   Selected Capital Investment Reports for DoD IT. Further, we reduced our audit
   scope to the information quality of report submissions as a result of the General
   Accounting Office Audit Report GAO-04-15, “Improvements Needed in the
   Reliability of Defense Budget Reports,” December 2003.

   Use of Computer-Processed Data. We did not use computer processed data to
   perform this audit.

   Use of Technical Assistance. We did not use technical assistance to perform this
   audit.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   DoD IT management.




                                       14
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls to ensure the accuracy and completeness of
    reports to OMB and Congress on capital investments for information technology.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. IT capital asset
    report submissions to OMB and Congress for FY 2004 did not demonstrate that
    DoD was effectively managing IT investments. Although the Office of the
    Assistant Secretary of Defense (Networks and Information Integration) had
    enhanced reporting oversight by integrating control features into its IT
    management database system, accountability controls still needed to be improved
    to ensure that information submissions are complete, accurate, and prepared in
    accordance with the Clinger-Cohen Act and OMB Circular A-11 guidance. If
    implemented, the recommendations to modify the DoD Financial Management
    Regulation will correct the identified weakness. We will provide a copy of this
    report to the senior official responsible for management controls in the Office of
    Secretary of Defense.

    Adequacy of Management’s Self-Evaluation. Self-evaluation of management
    controls does not apply because this audit does not address a specific DoD
    program or Component.


Prior Coverage
    GAO Report Number GAO-04-115, “Improvements Needed in the Reliability of
    Defense Budget Submissions,” December 2003




                                        15
Appendix B. Number of FY 2004 Information
            Technology Reports by DoD
            Component


                                               Capital Investment       Selected Capital
                                              Reports Submitted to    Investment Reports
                  DoD Component                      OMB1            Submitted to Congress


Army                                                   37                     36
Navy                                                   48                     47
Air Force                                              33                     33
American Forces Information Service                     1                       1
Defense Commissary Agency                               1                       1
Defense Contract Management Agency                      1                       1
Defense Finance and Accounting Service                 17                     17
Defense Human Resource Activity                         4                       4
Defense Information Systems Agency                     19                     19
Defense Logistics Agency                                9                       9
Defense Security Service                                1                       1
Office of the Secretary of Defense                      8                       9
TRICARE                                                10                     10
United States Transportation Command                    9                       9
                        Totals                        198                    197




1
    President’s Budget Submission


                                         16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Networks and Information Integration)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
Under Secretary of Defense Comptroller
Comments




                      19
Assistant Secretary of Defense (Networks and
Information Integration) Comments




                      20
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.
Mary L. Ugone
Kathryn M. Truex
David M. Wyte
Stephen J. Bressi
George A. Leighton
Robert R. Johnson
John R. Huddleston
Leann Alwood
Benita Holliman
Barbara S. Wright
Christy Haynes
Patricia A. Joyner
Jacqueline N. Pugh
